March 31, 2003

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Inspection Service Fraud Against Business
         and Consumer Programs and the Customer Initiative Group
         (Report Number SA-AR-03-001)

This report presents the results of our audit of the Postal Inspection Service Fraud
Against Business and Consumer Programs and Customer Initiative Group (Project
Number 00JA011OV003). Our overall objective was to determine the effectiveness of
the Postal Inspection Service’s fraud prevention activities, fraud program goals, fraud
complaint system, case selection and jacketing procedures for fraud investigations, and
the customer initiative group. This report is the second report addressing the Postal
Inspection Service’s fraud program.

The audit revealed that 29 of 153 fraud against business and consumer cases reviewed
resulted in investigations that were closed or declined with no action taken, resulting in
a projected cost to the Postal Inspection Service of at least $727,000 in resources
expended on these investigations. Our audit also revealed that the Postal Inspection
Service’s Fraud Complaint System, an automated database of fraud complaints, will
become redundant with another federal government fraud complaint system. In
addition, we found that the Postal Inspection Service did not have a process in place to
measure the effectiveness of the Business Mailing Industry Task Force.

We made four recommendations and Postal Inspection Service management disagreed
with each of our recommendations. The Office of Inspector General (OIG) considers
these recommendations as unresolved. However, we do not plan to pursue these
issues through formal audit resolution, but will conduct follow-up audit work in these
areas in the future. Management’s comments and our evaluation of these comments
are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact
Michael Thompson, director, Inspection Service Audits, at (703) 248-2100 or me at
(703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment

cc: Richard J. Strasser, Jr.
    James J. Rowan, Jr.
    Lawrence E. Maxwell
    Larry C. Visos
    Susan M. Duchek
Postal Inspection Service Fraud Against Business                            SA-AR-03-001
and Consumer Programs and the Customer Initiative Group


                                 TABLE OF CONTENTS
    Executive Summary                                                             i

    Part I

    Introduction                                                                  1

        Background                                                                1
        Objective, Scope, and Methodology                                         2
        Prior Audit Coverage                                                      3

    Part II

    Audit Results                                                                 4

        Fraud Investigations Closed With No Action                                4
        Recommendation                                                            6
        Management’s Comments                                                     6
        Evaluation of Management’s Comments                                       6

        Postal Inspection Service – Fraud Complaint System Redundant              8
        Recommendations                                                          11
        Management’s Comments                                                    11
        Evaluation of Management’s Comments                                      11

        Measurement Process Needed for Business Mailing                          13
         Industry Task Force
        Recommendation                                                           15
        Management’s Comments                                                    15
        Evaluation of Management’s Comments                                      15

    Appendix A. Statistical Sampling for Fraud Against Business and              16
                Consumer Programs

    Appendix B. Listing of 29 Investigations That Were Closed or Declined        19
                With No Acton Taken

    Appendix C. Memorandum of Understanding – Page 9 Proposed                    20
                Complaint Data Transfer Schedule

    Appendix D. Management’s Comments                                            21




                                       Restricted Information
Postal Inspection Service Fraud Against Business                                  SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                                 EXECUTIVE SUMMARY
Introduction                This report presents the results of our self-initiated audit of
                            the Postal Inspection Service fraud against business and
                            consumer programs and customer initiative group. Our
                            overall objective was to determine the effectiveness of the
                            Postal Inspection Service’s fraud prevention activities, fraud
                            program goals, fraud complaint system, case selection and
                            jacketing procedures for fraud investigations, and the
                            customer initiative group. This report is the second report
                            addressing the Postal Inspection Service’s fraud program.

Results in Brief            The audit revealed that of 153 closed fraud against
                            business and consumer case files reviewed, 29 of these
                            investigations were closed or declined with no action taken,
                            resulting in a projected cost to the Postal Inspection Service
                            of at least $727,000 expended on resources conducting
                            fraud against business and consumer investigations.

                            The audit also revealed that the Postal Inspection Service’s
                            Fraud Complaint System will become redundant with the
                            Federal Trade Commission’s Consumer Sentinel upon the
                            completion of a Memorandum of Understanding between
                            these two agencies. To date, the Postal Inspection Service
                            has expended over $2.7 million on maintenance and
                            development costs on a fraud complaint system that will
                            ultimately be redundant.

                            Our audit also disclosed that the Postal Inspection Service
                            did not have a process in place to measure the
                            effectiveness of the Business Mailing Industry Task Force.

Summary of                  We recommended increased management oversight of the
Recommendations             case selection process, and adherence to the Inspection
                            Service Manual regarding fraud allegations selected for
                            investigation. In addition, we recommended Postal
                            Inspection Service management devise and implement a
                            plan to ensure the completion of the Memorandum of
                            Understanding between the Federal Trade Commission and
                            the Postal Inspection Service, which allows for the
                            diminished use of the Fraud Complaint System for response
                            letters to complainants and temporary data storage for
                            transfer to the Federal Trade Commission’s Consumer
                            Sentinel, and, determine the attributable cost avoidance for




                                                 i
                                       Restricted Information
Postal Inspection Service Fraud Against Business                                SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                            the Postal Service and report the same to the chief financial
                            officer.

                            We also recommended that a process be devised and
                            implemented by fiscal year (FY) 2004 to measure and report
                            the effectiveness of the Business Mailing Industry Task
                            Force in order to determine whether: (1) the task force is
                            fulfilling its stated goal, (2) Postal Inspection Service
                            resources are being appropriately utilized, and (3) the task
                            force has been a success.

Summary of                  Postal Inspection Service management disagreed with our
Management’s                recommendation to increase management oversight of the
Comments                    case selection process, and ensure adherence to the
                            Inspection Service Manual regarding fraud allegations
                            selected for investigation stating that the position of team
                            leader is appropriately authorized to determine when
                            information warrants further investigation.

                            Postal Inspection Service management disagreed with our
                            recommendation to devise and implement a plan to ensure
                            completion of the Memorandum of Understanding between
                            the Federal Trade Commission and the Postal Inspection
                            Service, which would allow for the diminished use of the
                            Fraud Complaint System. Management stated their
                            responsibility to protect consumers using the mail from fraud
                            did not allow them to discontinue or even diminish the role
                            of the Fraud Complaint System. In addition, management’s
                            comments did not address our recommendation to
                            determine the attributable cost avoidance for the Postal
                            Service and report the same to the chief financial officer,
                            stating that deleting information stored in the Fraud
                            Complaint System would save data memory and increase
                            system efficiencies, but would not produce any cost
                            savings.

                            Postal Inspection Service management disagreed with our
                            recommendation to devise and implement a process to
                            measure and report the effectiveness of the Business
                            Mailing Industry Task Force during FY 2004, commenting
                            that any measurement system had to be agreed to by the
                            governing board of the Business Mailing Industry Task
                            Force. Management’s comments, in their entirety, are
                            included in Appendix D of this report.




                                                 ii
                                       Restricted Information
Postal Inspection Service Fraud Against Business                                                        SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group




Overall Evaluation of              Postal Inspection Service management’s comments
Management’s                       regarding increased management oversight of the case
Comments                           selection process, and adherence to the Inspection Service
                                   Manual regarding fraud allegations selected for investigation
                                   were not responsive to the recommendation. We reported
                                   19 percent of fraud against business and consumer case
                                   files were closed or declined with no prosecutive or
                                   civil/administrative action taken. Management commented
                                   that in FY 2002 alone, 21 percent of fraud cases were
                                   closed with no action taken.1 With the percentage of fraud
                                   cases closed with no action taken increasing, we believe it
                                   is in the Postal Inspection Service’s interest to increase
                                   oversight of the case selection process beyond the current
                                   team leader level.

                                   Postal Inspection Service management’s comments
                                   regarding the diminished use of the Fraud Complaint
                                   System were not responsive to the recommendation. We
                                   did not recommend the discontinuance of the Fraud
                                   Complaint System. Rather, we advised management to
                                   redefine the current role of the Fraud Complaint System
                                   from an investigative tool to a temporary repository of fraud
                                   complaints. Further, we believe a redefined role for the
                                   Fraud Complaint System would not adversely affect the
                                   Postal Inspection Service’s mission of deterring and
                                   investigating fraud, as inspectors would still be able to
                                   respond to, analyze, share, and delete the fraud complaint
                                   data.

                                   Postal Inspection Service management’s comments
                                   regarding our recommendation to determine the attributable
                                   cost avoidance for the Postal Service and report the same
                                   to the chief financial officer were not responsive to the
                                   recommendation. Management interpreted cost savings
                                   associated with the Fraud Complaint System as deleting
                                   information which would save data memory and increase
                                   system efficiencies but would not produce any cost savings.
                                   In our report, we identified cost savings as not having the
                                   need for additional development costs related to the Fraud

1
  Postal Inspection Service management stated in part, “. . . . of the 954 fraud cases we closed in FY 2002 alone. . .
21 percent (251) were closed without action.” Based on these totals and the calculations provided by Postal
Inspection Service management, we could not verify the accuracy for the 21 percent of fraud cases closed with no
action, which could be as high as 26 percent (251 of 954).



                                                           iii
                                               Restricted Information
Postal Inspection Service Fraud Against Business                                                     SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                                   Complaint System, and the expenditure of funds to correct
                                   current reporting deficiencies.

                                   Postal Inspection Service management’s comments
                                   regarding our recommendation to devise and implement a
                                   measurement process specifically to measure the
                                   effectiveness of Postal Inspection Service resources
                                   expended on the Business Mailing Industry Task Force
                                   were not responsive to the recommendation. Management
                                   addressed the challenges of implementing a measurement
                                   system for the Business Mailing Industry Task Force.
                                   However, in a meeting with the inspector-in-charge of
                                   Group 3 – Integrity,2 prior to the issuance of the draft audit
                                   report, we explained our recommendation was for Postal
                                   Inspection Service management to devise and implement a
                                   measurement process specifically to measure the
                                   effectiveness of Postal Inspection Service resources
                                   expended on the Business Mailing Industry Task Force.

                                   The OIG considers these recommendations as unresolved.
                                   However, we do not plan to pursue these issues through
                                   formal audit resolution, but will conduct follow-up audit work
                                   in these areas in the future.




2
    Formerly known as the Fraud, Child Exploitation, Asset Forfeiture, and Money Laundering group.



                                                          iv
                                               Restricted Information
Postal Inspection Service Fraud Against Business                                                       SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                                             INTRODUCTION
Background                        The Postal Inspection Service is authorized by federal laws
                                  and regulations to investigate and enforce over 200 federal
                                  statutes related to crimes against the United States mail, the
                                  Postal Service, and its employees. Under this authority, the
                                  Postal Inspection Service investigates crimes in which the
                                  United States mail is used to further a fraud scheme,
                                  whether originating through the mail, by telephone, or on the
                                  Internet.3

                                  The Postal Inspection Service’s fraud program is their
                                  second largest criminal program4 and is designed to protect
                                  the Postal Service and the American public from fraudulent
                                  schemes where the use of the mail is an essential part of
                                  the scheme. The Postal Inspection Service categorizes its
                                  fraud program into three broad victim types:

                                       •   Fraud against business – designed to protect the
                                           business community from being victimized by mail
                                           fraud, and emphasizes working with the business
                                           community to educate, deter, and investigate
                                           allegations of fraud.

                                       •   Fraud against consumer – designed to protect the
                                           general public from mail fraud, and emphasizes
                                           consumer awareness in the prevention of fraud.

                                       • Fraud against government – designed to protect
                                           federal, state, and local government agencies that fall
                                           prey to mail fraud scams.

                                  Within the fraud program, the Postal Inspection Service
                                  developed a central repository of fraud complaints known as
                                  the Fraud Complaint System. This system is an automated
                                  database of complaints designed to collect information
                                  directly from businesses and consumers about possible mail
                                  fraud. The data in the Fraud Complaint System is only
                                  accessible by the Postal Inspection Service and may be
                                  used to generate fraud investigations.

3
  Title18, United States Code, Section 1341, Mail Fraud Statute, defines fraud as a scheme that uses the United
States mail to obtain money or property by means of false or fraudulent representation. In addition, the Violent Crime
Control and Law Enforcement Act of 1994 broadened Title18, United States Code, Section 1341, to include delivery
“by any private or commercial interstate carrier.”
4
  Based on a workhour comparison of other Postal Inspection Service criminal programs.



                                                          1
                                               Restricted Information
Postal Inspection Service Fraud Against Business                                                       SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group



                                  The Postal Inspection Service determined they had a need
                                  to join forces and share best practices with the business
                                  mailing industry. As a result, they partnered with the
                                  financial services, manufacturing, and direct marketing
                                  industries to form the Business Mailing Industry Task Force.

Objective, Scope, and             Our overall objective was to determine the effectiveness of
Methodology                       the Postal Inspection Service’s fraud prevention activities,
                                  fraud program goals, fraud complaint system, case selection
                                  and jacketing procedures for fraud investigations, and the
                                  customer initiative group. Specifically, we determined
                                  whether fraud allegations were appropriately selected for
                                  investigation and whether the Postal Inspection Service’s
                                  Fraud Complaint System was properly utilized. We also
                                  reviewed the Postal Inspection Service’s customer initiative
                                  group. This report is the second report addressing the
                                  Postal Inspection Service’s fraud program.

                                  To accomplish these objectives, we statistically selected
                                  and reviewed 1535 fraud against business and consumer
                                  investigations closed between September 1997 and
                                  August 2000.6 Specifically, we reviewed associated criteria,
                                  closed case files, Postal Inspection Service database case
                                  summary reports, and program workhours. We interviewed
                                  Postal Inspection Service Headquarters personnel from
                                  Group 3 – Integrity,7 and the Information Technology
                                  Division. We also interviewed Postal Inspection Service
                                  division personnel located in eight divisions, as well as
                                  support personnel and fraud technicians located at a Postal
                                  Inspection Service Operations Support Group. We
                                  interviewed officials from the Federal Trade Commission to
                                  determine how their fraud complaints were obtained,
                                  reported, and utilized. Additionally, we interviewed Postal
                                  Inspection Service personnel associated with the customer
                                  initiative group.




5
   Our original sample included 161 closed case files. We did not review eight closed case files because Postal
Inspection Service officials jacketed these cases in error. Five of the eight cases were determined to be area case
files jacketed under an incorrect subject code; the remaining three cases should not have been jacketed as fraud
against business or consumer case files.
6
   See Appendix A for the detailed sampling plan.
7
   Formerly known as the Fraud, Child Exploitation, Asset Forfeiture, and Money Laundering group.



                                                         2
                                              Restricted Information
Postal Inspection Service Fraud Against Business                                 SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group



                            This audit was conducted from September 2001 through
                            March 2003 in accordance with generally accepted
                            government auditing standards. We reviewed internal
                            controls as they related to the audit objectives. Specifically,
                            we reviewed policies and procedures related to the fraud
                            against business and consumer programs to ensure Postal
                            Inspection Service management’s program objectives were
                            met. We further assessed the accuracy of data contained in
                            the Inspection Service Database Information System
                            (ISDBIS) and determined that it was sufficient to support our
                            audit conclusions. We discussed our conclusions and
                            observations with Postal Inspection Service management
                            officials and included their comments, where appropriate.

Prior Audit Coverage        Office of Inspector General (OIG) report, Inspection Service
                            Fraud Against Government Program (Report Number OV-
                            AR-01-004, dated September 28, 2001), identified that the
                            Postal Inspection Service participated in fraud against
                            government investigations because the fraudulent activity
                            involved information passing through the United States mail,
                            but otherwise did not impact the Postal Service. The report
                            also identified that the Postal Inspection Service reported
                            that its investigations under the fraud against government
                            program assisted in obtaining $491 million in fines and
                            restitution, when in fact only $2.9 million of these funds were
                            to be provided back to the Postal Service. Finally, the
                            report identified that the accuracy of arrest and conviction
                            statistics reported by the Postal Inspection Service could not
                            be determined because inspectors did not fully document
                            the extent of their involvement in fraud against government
                            investigations.

                            The OIG recommended Postal Inspection Service
                            management require the separate reporting of fines and
                            restitution due to the Postal Service, fully document the
                            investigative activity of inspectors conducting task force and
                            joint investigations, and ensure that arrest and conviction
                            statistics are only reported when the Postal Inspection
                            Service motivates and materially contributes to the
                            investigation. Management partially agreed with our
                            recommendations and stated they would explore the
                            feasibility and cost effectiveness of modifying their existing
                            database information system, and would conduct a case file
                            improvement initiative.



                                                  3
                                       Restricted Information
Postal Inspection Service Fraud Against Business                                                     SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                                            AUDIT RESULTS
Fraud Investigations             Our review of 153 closed fraud against business and
Closed With No                   consumer case files identified 29 of these investigations
Action                           were closed or declined with no prosecutive, civil, or
                                 administrative action taken, 8 resulting in a projected cost to
                                 the Postal Inspection Service of at least $727,000.9

                                 This occurred because of inadequate management
                                 oversight of fraud allegations selected for investigation.
                                 Specifically, approving officials and inspectors did not follow
                                 established guidance related to the case selection process,
                                 relying more upon their personal experiences and
                                 knowledge when selecting allegations to be investigated
                                 rather than the Inspection Service Manual.

                                 Examples of investigations found during our review
                                 included:

                                      •   Inspectors worked 422 hours on a case involving a
                                          false billing scheme only to have the case dismissed
                                          by the assistant United States attorney at the request
                                          of the inspector. Case documents noted the
                                          inspector was to seek an administrative action
                                          (voluntary discontinuance), but no evidence was
                                          found in the case file to support whether one was
                                          sought.

                                      •   An inspector investigating a case involving a vacation
                                          scheme worked 260 hours and kept the case open
                                          for 675 days only to request that the case be closed
                                          based upon the “known attitude” of the United States
                                          attorney. The case was kept open for an additional
                                          12 months with no investigative action, of which it
                                          took 5 of those months to close the case.




8
  See Appendix A (Results - Cases Declined or Closed Without Remedy) for projection specific information.
9
  The hourly rate used in the projected cost was based on the year-to-date average inspector hourly rate of
$56.55 obtained from the National Payroll Hours Summary Report for accounting period 06-2001, ending
February 23, 2001. See Appendix B for the complete listing of 29 cases that were closed or declined with no action
taken.




                                                         4
                                              Restricted Information
Postal Inspection Service Fraud Against Business                                 SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group



                                •   Inspectors worked 135 hours and spent nearly
                                    2½ years investigating a health care scheme that
                                    was ultimately declined for prosecution by the
                                    assistant United States attorney due to the lack of
                                    potential for conviction.

                            During our interviews conducted with fraud inspectors from
                            eight divisions, we were told that personal experiences and
                            “gut instinct” were relied upon more than consulting the
                            Inspection Service Manual when determining which
                            allegations to select for investigation.

                            The Inspection Service Manual provides fraud inspectors
                            with procedures and techniques for prioritizing and jacketing
                            cases and performing mail fraud investigations.
                            Specifically, the Inspection Service Manual requires that
                            inspectors must distinguish between evidence which points
                            merely to a civil breach of contract from that which signals
                            the existence of a fraudulent scheme. Additionally, the
                            Inspection Service Manual advises inspectors to continually
                            assess the potential merits of a case and not retain or
                            needlessly pursue cases when there has been no
                            actionable violation.

                            In a discussion with Postal Inspection Service management,
                            the OIG was informed that the Inspection Service Manual
                            was intended to provide a fundamental reference on points
                            of general importance in the mechanics and policies of the
                            Postal Inspection Service, but should not be used as a
                            guide to determine what types of investigations to open.
                            Further, Postal Inspection Service management agreed with
                            our reported condition, and suggested that this condition
                            should be monitored as an important indicator to alert the
                            Postal Inspection Service of situations where cases were
                            initiated when no effective action could be pursued, where
                            resources could have been used elsewhere, and as a
                            review in certain cases to determine if all reasonable actions
                            were pursued.

                            We believe that personal experiences and “gut instincts”
                            play a role in the process of selecting cases for
                            investigation, and policies and procedures are equally
                            important elements. We also concur with Postal Inspection
                            Service management’s suggestion of enhancing their



                                                  5
                                       Restricted Information
Postal Inspection Service Fraud Against Business                                                      SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                                  monitoring of the reported condition, thus providing a better
                                  opportunity for success in investigations.

Recommendation                    We recommend the chief postal inspector:

                                      1. Increase management’s oversight of the case
                                         selection process and ensure the Inspection Service
                                         Manual is adhered to regarding fraud allegations
                                         selected for investigation.

Management’s                      Postal Inspection Service management disagreed with the
Comments                          recommendation. Specifically, they disagreed to increase
                                  management oversight beyond the current team leader
                                  level. Management stated the position of team leader was
                                  appropriately authorized to determine when information
                                  warrants further investigation. Further, they disagreed with
                                  the emphasis the recommendation placed on using the
                                  Inspection Service Manual more than relying upon “personal
                                  experiences and knowledge when selecting allegations to
                                  be investigated.”

Evaluation of                     Postal Inspection Service management’s comments were
Management’s                      not responsive to the recommendation. We reported
Comments                          19 percent of fraud against business and consumer case
                                  files were closed or declined with no prosecutive or
                                  civil/administrative action taken. Management commented
                                  that in fiscal year (FY) 2002 alone, 21 percent of fraud
                                  cases were closed with no action taken.10 With the
                                  percentage of fraud cases closed with no action taken
                                  increasing, we believe it would be in the Postal Inspection
                                  Service’s interest to increase oversight of the case selection
                                  process beyond the current team leader level.

                                  In addition, we did not recommend Postal Inspection
                                  Service management emphasize using the Inspection
                                  Service Manual more than relying upon “personal
                                  experiences and knowledge when selecting allegations to
                                  be investigated.” In our report, we recognized personal
                                  experiences, “gut instincts,” and policies and procedures as
                                  equally important elements, all playing a role in the process
                                  of selecting cases for investigation. Further, we did not
10
   Postal Inspection Service management’s comments stated in part, “. . . .of the 954 fraud cases we closed in
FY 2002 alone. . . .21 percent (251) were closed without action.” Based on these totals and the calculations provided
by Postal Inspection Service management, we could not verify the accuracy for the 21 percent of fraud cases closed
with no action, which could be as high as 26 percent (251 of 954).



                                                         6
                                              Restricted Information
Postal Inspection Service Fraud Against Business                                 SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                            recommend that a greater emphasis be placed on the
                            Inspection Service Manual over inspector experience.

                            The OIG considers this recommendation as unresolved.
                            However, we do not plan to pursue this through formal audit
                            resolution, but will conduct follow-up audit work in this area
                            in the future.




                                                  7
                                       Restricted Information
Postal Inspection Service Fraud Against Business                                                      SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group




Postal Inspection                 The Postal Inspection Service’s Fraud Complaint System,
Service – Fraud                   an automated database of fraud complaints, will become
Complaint System                  redundant. Specifically, the Fraud Complaint System will
Redundant                         mirror the Federal Trade Commission’s Consumer Sentinel
                                  database. In addition, the Postal Inspection Service has
                                  expended over $2.7 million on maintenance and
                                  development costs for their system.

                                  In the mid-1980’s the Postal Inspection Service developed
                                  the Fraud Complaint System, designed to collect data
                                  directly from consumers about possible incidents of
                                  consumer fraud and accessible by Postal Inspection Service
                                  personnel only. Complaints are received by mail or through
                                  the Internet via a fraud complaint form. These complaints
                                  are individually acknowledged with a response letter from
                                  the Postal Inspection Service. In FYs 2001 and 2002, the
                                  Postal Inspection Service received approximately
                                  105,000 and 73,000 fraud complaints, respectively.
                                  Currently there are approximately 676,000 fraud complaints
                                  stored in the Fraud Complaint System.

                                  Postal Inspection Service officials could not provide the
                                  total operating costs associated with the Fraud Complaint
                                  System from December 1999 through April 2002; therefore,
                                  we were not able to determine total operating costs.
                                  However, we determined that the Postal Inspection
                                  Service had spent over $2.7 million from December 1999
                                  to April 2002 on maintenance and development costs
                                  associated with the system. These costs did not include the
                                  associated overhead for the letter responses to
                                  complainants.

Federal Trade                     In 1997, the Federal Trade Commission established
Commission –                      Consumer Sentinel as a law enforcement database to be
Consumer Sentinel                 used by the Federal Trade Commission and more than
                                  475 law enforcement agencies in Australia, Canada, and
                                  the United States.11 Consumer Sentinel gives law
                                  enforcement access to over 700,000 complaints including
                                  consumer complaints from the Better Business Bureau, the



11
  As of this report, member United States agencies included such agencies as: Federal Bureau of Investigation;
Department of Justice; Federal Deposit Insurance Corporation – OIG; Internal Revenue Service – Criminal
Investigations; Secret Service; Small Business Administration – OIG, and United States Attorney offices nationwide.



                                                         8
                                              Restricted Information
Postal Inspection Service Fraud Against Business                                             SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                                   National Fraud Information Center, and Canada’s
                                   PhoneBusters.12

                                   In March 2001, the Postal Inspection Service and Federal
                                   Trade Commission signed a Memorandum of
                                   Understanding, in which both parties agreed that mail fraud
                                   complaints received by the Postal Inspection Service would
                                   be input into Consumer Sentinel in four phases. The
                                   memorandum established specified target dates ranging
                                   from March to August 2001 for data transfer completion. To
                                   date, three of the four phases outlined in the
                                   memorandum’s Proposed Complaint Data Transfer
                                   Schedule have exceeded their completion target dates by
                                   more than 1 year.13 Postal Inspection Service management
                                   attributed the delays to the lack of a full-time Consumer
                                   Sentinel manager, as well as time and resource constraints
                                   for both the Federal Trade Commission and the Postal
                                   Inspection Service. Postal Inspection Service management
                                   told the OIG that the original Memorandum of
                                   Understanding was being updated and will have revised
                                   timelines and target dates for concluding each of the
                                   remaining phases.

                                   In further discussions with Postal Inspection Service
                                   management, we were informed that the Federal Trade
                                   Commission did not have the necessary funding in place to
                                   absorb all of the Postal Inspection Service’s fraud
                                   complaints. However, in subsequent discussions with an
                                   official from the Federal Trade Commission involved in the
                                   daily operations of Consumer Sentinel, we were told the
                                   issue is not one of capacity, but rather cost. We were told
                                   Consumer Sentinel’s capacity could be upgraded to accept
                                   any volume of complaints provided by the Postal Inspection
                                   Service (both historical and future), but there is no funding
                                   to cover the letter response costs for the Postal Inspection
                                   Service’s 60,000 – 100,000 fraud complaints received
                                   annually.

                                   In discussing this issue further with the same Federal Trade
                                   Commission official, we were told that if the Postal
                                   Inspection Service were to continue processing their
                                   complaints in the same manner they currently do, which
                                   entails providing a letter response to every complainant, the
12
     A Canadian government agency that collects and disseminates telemarketing complaints.
13
     See Appendix C for copy of original schedule.



                                                          9
                                               Restricted Information
Postal Inspection Service Fraud Against Business                                                  SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                                Consumer Sentinel would be able to accept a biweekly data
                                download of all Postal Inspection Service fraud complaints
                                just as it does from other major contributors. This would
                                allow the Postal Inspection Service to redefine the current
                                role of the Fraud Complaint System from an investigative
                                tool to a temporary repository of fraud complaints kept for a
                                specified period of time and forwarded to the Consumer
                                Sentinel for all law enforcement use. This would preclude
                                the need for additional development costs related to the
                                Fraud Complaint System. In addition, the Postal Service
                                would not have to expend funds to correct current reporting
                                deficiencies with the Fraud Complaint System.

                                Whereas the Fraud Complaint System is a database owned
                                and maintained by the Postal Inspection Service for their
                                use only, the Consumer Sentinel database allows the
                                approximately 475 approved users, including the Postal
                                Inspection Service, direct on-line access to a clearinghouse
                                of consumer fraud related complaint data and other
                                investigative and coordinative tools for law enforcement
                                agencies. The benefit of the Postal Inspection Service
                                utilizing Consumer Sentinel is that Consumer Sentinel
                                receives fraud complaints from numerous data contributors,
                                including the Postal Inspection Service, whereas the Fraud
                                Complaint System focuses on fraud complaints received
                                predominantly from Postal Service customers.14

                                An additional benefit was observed during our audit
                                fieldwork when we observed the Postal Inspection Service’s
                                participation in the National Consumer Protection Week at
                                the Chicago, Illinois Post Office. It was noted that several of
                                the Postal Inspection Service displays contained fraud
                                statistics and graphs directly from Consumer Sentinel.

                                Although the Postal Inspection Service is in the process of
                                updating the Memorandum of Understanding, unless the
                                usage of the Fraud Complaint System is modified to provide
                                for only response letters and temporary data storage, the
                                Fraud Complaint System will be redundant. In addition, the
                                Postal Inspection Service will be able to reduce the cost of
                                maintaining the Fraud Complaint System.



14
  As of this report, contributing members included such organizations as: National Consumers League, Phone
Busters, Better Business Bureaus, and the Internet Fraud Complaint Center.



                                                      10
                                            Restricted Information
Postal Inspection Service Fraud Against Business                                 SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group




Recommendation              We recommend the chief postal inspector:

                                2. Devise and implement a plan to ensure the
                                   completion of the Memorandum of Understanding
                                   between the Federal Trade Commission and the
                                   Postal Inspection Service, which allows for the
                                   diminished use of the Fraud Complaint System for
                                   response letters to complainants and temporary data
                                   storage for transfer to the Federal Trade
                                   Commission’s Consumer Sentinel.

Management’s                Postal Inspection Service management disagreed with the
Comments                    recommendation. Specifically, management stated they
                            disagreed with our recommendation for them to conclude an
                            agreement “which allowed for the diminished use of the
                            Fraud Complaint System for response letters to
                            complainants.” In addition, management stated that their
                            responsibility to protect consumers using the mail from fraud
                            did not allow them to discontinue or even diminish the role
                            of the Fraud Complaint System.

Evaluation of               Postal Inspection Service management’s comments were
Management’s                not responsive to the recommendation. We did not
Comments                    recommend the discontinuance of the Fraud Complaint
                            System. Rather, we advised Postal Inspection Service
                            management to redefine the current role of the Fraud
                            Complaint System from an investigative tool to a temporary
                            repository of fraud complaints, which would be kept for a
                            specified period of time, and then forwarded to the
                            Consumer Sentinel for all law enforcement use. The
                            completion of the Memorandum of Understanding with the
                            Federal Trade Commission would not adversely affect the
                            Postal Inspection Service’s mission of deterring and
                            investigating fraud as inspectors would still be able to
                            respond to, analyze, share, and delete the fraud complaint
                            data.

                            The OIG considers this recommendation as unresolved.
                            However, we do not plan to pursue this through formal audit
                            resolution, but will conduct follow-up audit work in this area
                            in the future.




                                                 11
                                       Restricted Information
Postal Inspection Service Fraud Against Business                                 SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group




Recommendation              We recommend the chief postal inspector:

                                3. Once implementation plans for the use of the Federal
                                   Trade Commission’s Consumer Sentinel have been
                                   agreed to, determine the attributable cost avoidance
                                   for the Postal Service and report the same to the
                                   chief financial officer.

Management’s                Postal Inspection Service management’s comments did not
Comments                    address the recommendation. Specifically, management
                            commented that deleting information stored in the Fraud
                            Complaint System would save data memory and increase
                            system efficiencies, but would not produce any cost
                            savings.

Evaluation of               In Postal Inspection Service management’s comments
Management’s                related to the recommendation, they interpreted cost
Comments                    savings associated with the Fraud Complaint System as
                            deleting information which would save data memory and
                            increase system efficiencies but would not produce any cost
                            savings. In our report, we identified cost savings as not
                            having the need for additional development costs related to
                            the Fraud Complaint System, and the expenditure of funds
                            to correct current reporting deficiencies.

                            The OIG considers this recommendation as unresolved.
                            However, we do not plan to pursue this through formal audit
                            resolution, but will conduct follow-up audit work in this area
                            in the future.




                                                 12
                                       Restricted Information
Postal Inspection Service Fraud Against Business                                                    SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


Measurement                      During our review we determined that the Postal Inspection
Process Needed for               Service did not have a process in place to measure the
Business Mailing                 effectiveness of the Business Mailing Industry Task Force.
Industry Task Force              As a result, Postal Inspection Service management cannot
                                 determine whether: (1) the task force is fulfilling its stated
                                 goal, (2) Postal Inspection Service resources are being
                                 appropriately utilized, and (3) the task force has been a
                                 success.

Background                       The Postal Inspection Service determined they had a need
                                 to join forces and share best practices with the business
                                 mailing industry. As a result, they partnered with the
                                 financial services, manufacturing, and direct marketing
                                 industries to form three task forces:

                                      •   Credit Card Mail Security15
                                      •   Rebate Fraud
                                      •   Mail Order Security

                                 In FY 2000, the Rebate Fraud and Mail Order Security Task
                                 Forces merged to become the Business Mailing Industry
                                 Task Force coordinated under the inspector-in-charge of
                                 Group 3 – Integrity.16

Postal Inspection                Although Postal Inspection Service management informed
Service Cannot                   the OIG the goal of the Business Mailing Industry Task
Measure the                      Force was to eliminate fraud from the mailing industry,
Effectiveness of the             management does not have a process in place to measure
Business Mailing                 the effectiveness of the task force.
Industry Task Force
                                 From the inception of the Business Mailing Industry Task
                                 Force, the Postal Inspection Service has been the primary
                                 contributor providing resources such as personnel,
                                 developing publications, and creating a website. Personnel
                                 from the Postal Inspection Service working with the task
                                 force consist of representatives from the Postal Inspection
                                 Service Fraud program, one representative from each
                                 Postal Inspection Service division, and the manager and
                                 staff at an Inspection Service Operations Support group.


15
   We were told the Credit Card Mail Security Task Force was coordinated under the Mail Theft criminal program;
therefore, this task force was excluded from this review.
16
   Formerly known as the Fraud, Child Exploitation, Asset Forfeiture, and Money Laundering group.



                                                       13
                                             Restricted Information
Postal Inspection Service Fraud Against Business                                                     SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                                 Publications created by the Postal Inspection Service to
                                 educate the business mailing industry for the prevention of
                                 mail fraud included:

                                      •   The Promotion Industry Guidelines for Mail-In Offers.

                                      •   Fighting Mail Order Fraud and Theft.

                                      •   Consumer and Business Guide to Preventing Mail
                                          Fraud.

                                 In support of the task force, the Postal Inspection Service
                                 developed and deployed a website to communicate
                                 business mailer information among the business mailing
                                 industry task force members in association with the Postal
                                 Inspection Service.17

                                 During our review, Postal Inspection Service management
                                 told us the Business Mailing Industry Task Force did not
                                 have a measuring process to determine its effectiveness.
                                 We also learned that the two previous task forces (Rebate
                                 Fraud and Mail Order Security), reported successes in
                                 combating mail fraud.18 However, Postal Inspection Service
                                 management assigned to the Business Mailing Industry
                                 Task Force informed us they did not incorporate any
                                 measurement processes from the previous task forces into
                                 the Business Mailing Industry Task Force. Postal
                                 Inspection Service management explained the reason the
                                 task force did not have a measurement process was
                                 because the task force was so new, and also to allow task
                                 force members to have input into creating a measurement
                                 process.

                                 A Postal Inspection Service official responsible for the day-
                                 to-day operations of the task force told us he envisioned the
                                 future of the Business Mailing Industry Task Force
                                 becoming self-sufficient, operating similar to a company with
                                 a board of directors, and having less Postal Inspection
                                 Service participation.

                                 The Postal Inspection Service has dedicated numerous
                                 resources over the past years to the Business Mailing
17
   Costs associated with Postal Inspection Service personnel, development of publications and the website were not
assessed.
18
   As reported in the OIG’s April 1, 2001 – September 30, 2001 Semiannual Report to Congress, page 107.



                                                       14
                                             Restricted Information
Postal Inspection Service Fraud Against Business                                 SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                            Industry Task Force. Although the Postal Inspection
                            Service envisions having a smaller role in the future, they
                            will still continue to provide resources in support of the task
                            force. We believe that until Postal Inspection Service
                            management measures the effectiveness of the task force,
                            they will not be able to determine whether: (1) the task force
                            is fulfilling its stated goal, (2) Postal Inspection Service
                            resources are being appropriately utilized, and (3) the task
                            force has been a success.

Recommendation              We recommend the chief postal inspector:

                                4. Devise and implement a process to measure and
                                   report the effectiveness of the Business Mailing
                                   Industry Task Force during FY 2004.

Management’s                Postal Inspection Service management disagreed with the
Comments                    recommendation. Management commented that any
                            measurement system had to be agreed to by the governing
                            board of the Business Mailing Industry Task Force.

Evaluation of               Postal Inspection Service management’s comments were
Management’s                not responsive to the recommendation. Management
Comments                    addressed the challenges of implementing a measurement
                            system for the Business Mailing Industry Task Force.
                            However, in discussions with the inspector-in-charge,
                            Group 3 – Integrity, prior to the issuance of the draft audit
                            report, we explained our recommendation was for Postal
                            Inspection Service management to devise and implement a
                            measurement process specifically to measure the
                            effectiveness of Postal Inspection Service resources
                            expended on the Business Mailing Industry Task Force.

                            The OIG considers this recommendation as unresolved.
                            However, we do not plan to pursue this through formal audit
                            resolution, but will conduct follow-up audit work in this area
                            in the future.




                                                 15
                                       Restricted Information
Postal Inspection Service Fraud Against Business                                 SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                           APPENDIX A
                 STATISTICAL SAMPLING FOR FRAUD
            AGAINST BUSINESS AND CONSUMER PROGRAMS

PURPOSE OF THE SAMPLING

One of the objectives of this audit was to assess the Postal Inspection Service’s fraud
program regarding fraud against consumers and businesses, specifically with respect
to cases that were declined by the district attorney or otherwise closed without a
remedy. In support of this objective, the audit team employed a stratified sample
design that allowed statistical projection of a review of individual cases within the fraud
against consumers and businesses programs.

DEFINITION OF THE AUDIT UNIVERSE

The audit universe consisted of individual cases that were closed between
September 13, 1997, and August 29, 2000, based on the listing in the Inspection
Service Database Information System. The subject code for area cases was excluded
from the audit coverage. From the database, the OIG audit team identified the list of
cases that met the timeframe criterion, resulting in an audit universe of 944 cases of
fraud against consumers and 1,180 cases of fraud against businesses, with cases
coded as area cases excluded from the universe. The database also provided a total
of 743,281 workhours for the fraud against consumers program and 609,509
workhours for the fraud against businesses program, for FYs 1998-2000, for those
subject codes that were not area cases. The Postal Inspection Service was the
source of the information in the database.

We recognize that there is about a 1-month discrepancy in the total period covered by
the cases and the workhours; we did not attempt to make any workhour adjustments
for that 1-month period.

SAMPLE DESIGN AND MODIFICATIONS

This audit used a stratified sample design, with cases for fraud against consumers and
fraud against businesses each further allocated into two categories based on the
subject codes of the cases. The OIG audit team allocated the subject codes to the
strata based on the OIG audit team assessment of the subject code’s “probable utility
to the postal service” (high versus low). A total of 80 cases of fraud against
consumers was randomly selected for review, to provide a two-sided 95 percent
confidence interval with approximately 13 percent precision, based on auditor
expectations of approximately a 50 percent level of compliance on one or more
attributes for cases involving fraud against consumers. The sample selection for
cases of fraud against consumers was random within each stratum, with 50 cases
from stratum I (NI = 788) and 30 cases from stratum II (NII = 156). A total of 80 cases
of fraud against businesses was randomly selected for review, to provide a


                                                 16
                                       Restricted Information
Postal Inspection Service Fraud Against Business                             SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


two-sided 95 percent confidence interval with approximately 13 percent precision,
based on auditor expectations of approximately a 50 percent level of compliance on
one or more attributes for cases involving fraud against businesses. The sample
selection for cases of fraud against businesses was random within each stratum, with
50 cases from stratum I (NI = 1,082) and 30 cases from stratum II (NII = 98). The team
elected to accept the above level of precision because of resource limitations that
prohibited executing the larger sample as required to achieve tighter precision.

The sample size was based on the evaluation of attributes associated with the case
files. The team later decided to include the workhours associated with cases, which is
a variable rather than an attribute. Workhour stratification of the universe might have
been useful, but the individual case workhour information was not accessible until
individual case records were reviewed. The workhour data associated with cases
involving schemes were combined for the two fraud programs, using four strata for the
analysis, which produced a larger effective sample size for the combined audit
universe and helped somewhat with the overall precision. However, precision for the
variable was considerably poorer than that planned for the attribute.

Upon examination of the sample files, the team determined that some cases were
area cases even though they were not coded as area cases in the universe database.
Because the problem was a result of miscoding, we could not remove other such
cases from the audit universe. Also, three cases in the sample had been jacketed in
error. Again, there was no way to remove other such instances from the audit
universe. We, therefore, analyzed the workhour data as coming from an unknown
subpopulation of workhours.

STATISTICAL PROJECTIONS OF THE SAMPLE DATA

METHODOLOGY
Sample attribute data was projected using the formulas for estimation of a population
proportion for a stratified sample, as described in Chapter 5 of Elementary Survey
Sampling, Scheaffer, Mendenhall, and Ott, c.1996.

The population of workhours included the hours attributable to the miscoded area
cases. Therefore, the workhour projections are to an unknown subpopulation of the
total hours. Sample workhour data was projected using the formulas for estimation of
a population total for a stratified sample, in conjunction with the methodology for an
unknown subpopulation, as described in Chapters 5 and 11 of Elementary Survey
Sampling, Scheaffer, Mendenhall, and Ott, c.1996. However, because of the large
uncertainty interval obtained from the sample, we report only the lower bound for the
workhour measure.




                                                 17
                                       Restricted Information
Postal Inspection Service Fraud Against Business                              SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


RESULTS
Cases declined or closed without remedy
Based on projection of the sample results, we are 95 percent confident that 240 to
523 cases were declined or closed without remedy (11.3 percent to 24.6 percent of the
audit universe). The unbiased point estimate is that 381 of the cases, or 18 percent of
the universe of cases, were declined or closed without remedy.

Cases without documentation of reason for declination or closure without
remedy
Based on projection of the sample results, we are 95 percent confident that 25 to
173 cases lacked documentation of reason for declination of closure without remedy
(1.2 percent to 8.1 percent of the audit universe). The unbiased point estimate is that
99 of the cases, or 3.5 percent of the universe of cases, lacked documentation of
reason for declination of closure without remedy.

Workhours for cases declined or closed without remedy (unknown
subpopulation)
From the sample data, we are unable to obtain sufficient precision to make a
projection of workhours associated with cases that were closed or declined. We
present only the lower bound of the 95 percent confidence interval; we consider that to
be a conservative value because examination of a larger sample would be expected to
produce a projection with tighter bounds and a point estimate that was not below the
lower bound of this review.

Based on the sample results, we are 95 percent confident that at least
12,860 workhours were spent on cases that were declined or closed without remedy in
the fraud against consumers and fraud against businesses programs.




                                                 18
                                       Restricted Information
Postal Inspection Service Fraud Against Business                                    SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                            APPENDIX B
       LISTING OF 29 INVESTIGATIONS THAT WERE CLOSED OR
                 DECLINED WITH NO ACTION TAKEN

The following Postal Inspection Service fraud against business and fraud against
consumer investigations were closed or declined with no action taken:


         Fraud Against Business                             Fraud Against Consumer

            593-1216110-FB(2)                                   468-1236007-FC(2)
            601-1190244-FB(2)                                   538-1199315-FC(2)
            656-1267382-FB(2)                                   465-1211395-FC(2)
            593-1208768-FB(2)                                   527-1203994-FC(2)
            601-1182137-FB(2)                                   538-1274186-FC(2)
            601-1201243-FB(2)                                   545-1290811-FC(2)
            605-1221057-FB(2)                                   539-1242886-FC(1)
            605-1230708-FB(2)                                   498-1191603-FC(2)
            609-1223824-FB(2)                                   493-1215394-FC(2)
            601-1216763-FB(2)                                   539-1230287-FC(2)
            610-1301805-FB(2)                                   468-1182264-FC(2)
            601-1208366-FB(2)                                   564-1194343-FC(2)
            592-1240071-FB(2)                                   538-1265459-FC(2)
            603-1241924-FB(2)                                   465-1234989-FC(1)
                                                                485-1251666-FC(2)




                                                 19
                                       Restricted Information
Postal Inspection Service Fraud Against Business                SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                        APPENDIX C
           MEMORANDUM OF UNDERSTANDING – PAGE 9
         PROPOSED COMPLAINT DATA TRANSFER SCHEDULE




                                                 20
                                       Restricted Information
Postal Inspection Service Fraud Against Business                SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group


                 APPENDIX D. MANAGEMENT’S COMMENTS




                                                 21
                                       Restricted Information
Postal Inspection Service Fraud Against Business                SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group




                                                 22
                                       Restricted Information
Postal Inspection Service Fraud Against Business                SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group




                                                 23
                                       Restricted Information
Postal Inspection Service Fraud Against Business                SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group




                                                 24
                                       Restricted Information
Postal Inspection Service Fraud Against Business                SA-AR-03-001
 and Consumer Programs and the Customer Initiative Group




                                                 25
                                       Restricted Information
